                                                               Issue Date
                                                                        May 04, 2012
                                                                
                                                               Audit Report Number
                                                                            2012-DE-1004




TO:         Carol Ann Roman, Director, Denver Office of Public Housing, 8APH


FROM:       Ronald J. Hosking, Regional Inspector General for Audit, 8AGA

SUBJECT: The Aurora Housing Authority Did Not Always Follow Requirements When
           Obligating, Expending, and Reporting Information About Its Recovery Act
           Capital Funds


                                   HIGHLIGHTS

 What We Audited and Why
             We reviewed the Aurora Housing Authority, located in Aurora, CO. We selected
             the Authority for review based on a comparison of certain characteristics—such
             as comparing the Authority’s Recovery and Reinvestment Act of 2009 funding
             with that of other housing authorities in the region—and the Denver Office of
             Public Housing’s concerns about its use of Recovery Act funds. Our objectives
             were to determine whether the Authority obligated its funds by the deadline,
             adequately managed its procurements and contracts, and accurately reported its
             Recovery Act information in FederalReporting.gov.

 What We Found
             We determined that the Authority did not obligate $22,018 of its Recovery Act
             funds by the March 17, 2010, deadline, adequately manage its Recovery Act
             procurements and contracts, or accurately report the number of vendor payments
             and jobs created in FederalReporting.gov.
What We Recommend
           We recommend that the Director of the Denver Office of Public Housing (1)
           recapture $22,018 in grant funds that was not obligated by the deadline (2) require
           the Authority to support the $206,377 in procurements and contracts and repay
           any amount not reasonable from non-federal funds, and (3) work with the U.S.
           Department of Housing and Urban Development (HUD) to make the applicable
           reporting changes in FederalReporting.gov.

           The Denver Office of Public Housing concurred with the recommendations and
           provided its management decisions on April 20, 2012. Please furnish us copies of
           any correspondence or directives issued because of the audit.

Auditee’s Response
           We provided the discussion draft of the audit report to the Authority on April 12,
           2012, and requested a response by April 27, 2012. The Authority provided its
           written response on April 27, 2012. It generally agreed with the findings, except
           for the items related to its force account obligations and procurements. The
           complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objectives                                                           4

Results of Audit
      Finding 1: The Authority Did Not Obligate $22,018 of Its Recovery Act Funds   5
                 by the Deadline
      Finding 2: The Authority Did Not Adequately Manage Its Recovery Act           8
                 Procurements and Contracts
      Finding 3: The Authority Did Not Accurately Report the Number of Vendor       12
                 Payments and Jobs Created

Scope and Methodology                                                               15

Internal Controls                                                                   16

Appendixes
   A. Schedule of Questioned Costs                                                  18
   B. Auditee Comments and OIG’s Evaluation                                         19




                                            3
                      BACKGROUND AND OBJECTIVES

The Aurora Housing Authority was established in 1975 to provide affordable housing in Aurora,
CO. The Authority’s mission is to develop and promote quality housing while supporting and
encouraging economic opportunities leading to self-sufficiency and independence. A five-
member board of commissioners governs the Authority, and an executive director manages its
daily operations. The Authority’s administrative offices are located at 10745 East Kentucky
Avenue, Aurora, CO.

The Authority owns and manages more than 900 units of rental housing, and manages an
additional 75 units of rental housing owned by its non-profit affiliate, the Aurora Housing
Corporation. The Authority’s rental housing portfolio consists of 132 units of Public Housing.

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009. This legislation included a $4 billion appropriation of capital funds to carry out capital
and management activities for public housing agencies as authorized under Section 9 of the
United States Housing Act of 1937. The Recovery Act requires that $3 billion of these funds be
distributed as formula grants and the remaining $1 billion be distributed through a competitive
grant process. On March 18, 2009, the U.S. Department of Housing and Urban Development
(HUD) awarded the Authority a $385,264 Public Housing Capital Fund stimulus (formula) grant
that was Recovery Act funded. The Authority used its Recovery Act grant funds to rehabilitate
its Buckingham Gardens property, which included its administrative offices.

The Recovery Act imposed additional reporting requirements and more stringent obligation and
expenditure requirements on the grant recipients beyond those applicable to the ongoing Public
Housing Capital Fund program grants. For example, the Authority was required to obligate 100
percent of its formula grant funds by March 17, 2010. It was required to expend 100 percent of
the grant funds by March 17, 2012. Additionally, the Recovery Act requires reports on the use
of Recovery Act funding by recipients no later than the 10th day after the end of each calendar
quarter. The recipient enters project and job information, subaward information, and vendor
transaction information into FederalReporting.gov. It is important for the recipients to report this
information accurately and in a timely manner because it is necessary to effectively implement
the accountability and transparency reporting requirements of the Recovery Act.

The objectives of the audit were to determine whether the Authority (1) obligated its formula
Recovery Act capital funds by the deadline, (2) adequately managed its Recovery Act
procurements and contracts, and (3) accurately reported Recovery Act information in
FederalReporting.gov.




                                                 4
Finding 1: The Authority Did Not Obligate $22,018 of Its Recovery Act
             Funds by the Deadline
The Authority did not obligate $22,018 of its Recovery Act funds by the March 17, 2010,
deadline. This noncompliance occurred because the Authority misunderstood the Recovery Act
obligation requirements. As a result, it will have $22,018 of its grant funds recaptured by HUD.



 The Authority Did Not Properly
 Obligate Grant Funds

              The Authority did not properly obligate $22,018 of its Recovery Act funds before
              the March 17, 2010, deadline. It did not obligate by the deadline funds for a new
              parking lot contract, a contingency account, and items procured and installed by
              force account labor.

              The HUD Office of Public and Indian Housing’s Notice PIH 2009-12 (HA)
              required the Authority to obligate 100 percent of its Recovery Act funds by
              March 17, 2010. An obligation is a contract execution for labor, materials, or
              services or start and continuation of physical work by force account labor. Force
              account labor includes those workers directly employed by the Authority.

              New Parking Lot Contract
              The Authority signed a contract for a new parking lot on June 6, 2011, which was
              447 days after the Recovery Act obligation deadline. The Authority paid $19,950
              for the new parking lot; however, it charged only $1,779 of the cost to its Recovery
              Act grant. As the contact was signed more than 14 months after the obligation
              deadline, the Authority did not have a valid obligation for the $1,779 paid with
              Recovery funds.

              Contingency Account
              The Authority did not properly obligate $1,076 of the Recovery Act funds that it had
              originally assigned to its contingency account. In August 2009, the Authority
              assigned a portion of its Recovery Act funds to a contingency account. The Denver
              HUD Office of Public Housing discovered the noncompliance during a remote
              monitoring review performed in January 2010. HUD informed the Authority that
              this assignment was contrary to Recovery Act requirements and that it had to move
              the funds to an appropriate account. The Authority reassigned $1,076 of the funds to
              a non-Recovery Act grant account and did not obligate any of these funds for
              eligible Recovery Act contracts or procurements before the March 17, 2010,
              deadline. Additionally, the funds were expensed for payroll costs that were not
              eligible because the work performed was not related to a Recovery Act activity.




                                                5
Force Account Procurements and Labor
The Authority did not obligate $19,163 of its force account labor or procurements
sequentially or at a reasonable rate. The housing notice states that for force
account work, all funds for a group of sequentially related physical work items are
considered obligated when the first item is started, but only when funds continue
to be expended at a reasonable rate. It further states that when one force account
physical work item is started and is not sequentially related to other physical work
items, only the funds for the one physical work item started are considered
obligated. To account for the work items, the Authority itemized the work
activities by property and budget line item.

For one property, the Authority procured a security system for its maintenance
building on September 30, 2009. This initial activity was eligible and properly
obligated. However, the Authority expensed additional costs to this property and
budget line item account 416 days after the initial procurement. The additional
costs were for installing new locks throughout the Authority, procuring security
doors, and force account labor. These expenses did not relate sequentially to the
security system procurement, and the Authority did not expend the funds at a
reasonable rate. Therefore, the Authority did not properly obligate the additional
force account procurements and labor totaling $19,060.

For another property, the Authority expensed a gas purchase for $103, 579 days
after completing the last activity for the budget line item for that property account.
The $103 was not a valid obligation because the cost did not relate sequentially to
prior purchases and the Authority did not expend it at a reasonable rate.

Table 1 summarizes those activities that the Authority did not obligate by the
March 17, 2010, deadline.

Table 1: Activities not obligated by the deadline

  Budget line item -                  Description               Amount not
   property number                                              obligated by
        account                                                   deadline
1450 - 1501-45-006          New parking lot contract                     $1,779
1501-50-228                 Contingency account                          $1,076
1460 - 1501-46-007          Force account                               $19,060
                            procurements and labor
1501-47-024                 Gas purchase                                    $103
                                                  Total                  $22,018




                                  6
The Authority Misunderstood
the Obligation Requirements


            The Authority misunderstood the Recovery Act obligation requirements. It
            thought it had obligated all the activities within a “budget line item” once it
            obligated the first activity in the same budget line item. It did not understand how
            “sequentially related” and “at a reasonable rate” applied to its force account
            procurements. The Authority stated that it used its remaining grant funds after the
            deadline because it was employing force account labor and saving the
            Government money.


The Authority Will Have
$22,018 Recaptured by HUD

            The Authority will have $22,018 of its grant funds recaptured by HUD. Under
            the housing notice, HUD is required to recapture all funds not obligated by the
            deadline, and an extension of the obligation deadline is not permitted.

            Although we recommend that HUD recapture the improperly obligated funds,
            there is no recommendation to address the Authority’s misunderstanding of the
            obligation requirements. The Authority had completed all of its planned
            Recovery Act activities, and the Recovery Act obligation requirement was
            specific to those funds only.

 Recommendation

            We recommend that the Director of the Denver Office of Public Housing

             1A.   Recapture $22,018 in grant funds that was not obligated by the deadline.




                                             7
Finding 2: The Authority Did Not Adequately Manage Its Recovery Act
             Procurements and Contracts
The Authority did not adequately manage its Recovery Act procurements and contracts. This
deficiency occurred because Authority staff did not fully understand its or HUD’s policies for
procuring goods and services. As a result, the Authority spent $206,377 in unsupported costs.



 The Authority Did Not
 Adequately Manage Recovery
 Act Procurements and Contracts

              The Authority did not adequately manage its Recovery Act procurements and
              contracts. It (1) could not adequately support full and open competition for eight
              work activities, (2) could not support that it performed independent cost estimates
              for its contracts and inspected the work completed by its contractors, (3) had
              additional contract work performed without a change order, and (4) did not
              maintain records sufficient to detail the significant history of each procurement or
              contract action.

              Force Account Procurements Lacked Adequate Competition
              The Authority could not adequately support that it ensured full and open
              competition for eight procurements. Regulations at 24 CFR (Code of Federal
              Regulations) 85.36(c)(1) state that all procurement actions will be conducted
              providing full and open competition. HUD Handbook 7460.8, paragraph 5-3(A),
              further requires the Authority to solicit price quotes from an adequate number of
              qualified sources, generally not fewer than three. The Authority could not support
              that it obtained any price quotes for the procurements listed in table 2.

              Table 2: Procurements lacking full and open competition

                               Project               Procurement cost
                st
               1 in Counters, Inc.                            $40,613
               Meyer Electric Co.                              $5,000
               Arbor Contract Carpet, Inc.                     $6,039
               Sink purchase                                   $5,676
               Refrigerator purchase                          $16,447
               Stove purchase                                  $6,210
               Window purchase                                 $3,384
               Siding purchase                                 $5,096
                                              Total:          $88,465




                                                8
Lack of Independent Cost Estimates or Inspections for Its Contracts
The Authority could not support that it performed independent cost estimates for
the six contracts shown in table 3. Regulations at 24 CFR 85.36(f)(1) state that as
a starting point, a housing authority must make estimates before receiving bids or
proposals. HUD Handbook 7460.8, REV-2, paragraph 3-2(A), states that an
independent cost estimate serves as an authority’s yardstick for evaluating the
reasonableness of a contractor’s proposed costs or prices.

In addition, the Authority could not show that it inspected the work completed by
the six contractors. HUD Handbook 7460.8, REV-2, paragraph 11-3(C), states
that a housing authority should monitor or inspect the supplies or services
obtained in accordance with the contract. Therefore, the Authority must inspect
the performance of the contractor to ensure that the work complies with the
signed contract.

Table 3: Contracts without cost estimates or inspections

                 Project                   Contract cost
 Concrete walks                                      $3,852
 Painting of common areas                           $12,416
 Painting of admin. Offices                          $6,742
 Asphalt mill and overlay                           $23,990
 Stair replacement                                  $51,385
 Carpet replacement                                 $17,201
                                 Total:           $115,586


No Change Order for Additional Contract Work
The Authority had $2,326 in additional contract work performed under the carpet
replacement project (see table 3) without obtaining a change order to the contract.
Section XI (F) of the Aurora Housing Authority Procurement Policy states that
the Authority will document the basis for contract modifications. The contract
folder did not contain a change order, nor could the Authority locate one for the
original contract.


Lack of Supporting Documentation
The Authority did not maintain records sufficient to detail the significant history
of each procurement or contract action as required by 24 CFR 85(b)(9). It could
not show justification for the method of procurement and the basis for the
procurement price for most of its Recovery Act-funded small purchases.




                                  9
Authority Staff Did Not
Fully Understand Policies

            Authority staff did not fully understand the Authority’s or HUD’s policies for
            procuring goods and services. Although the Authority had written procurement
            policies to ensure competitiveness, independent cost estimates, inspections, and
            change orders, its staff did not fully understand or follow these polices. The staff
            believed that because it saved the Government money using its own labor force, it
            did not have to follow all Federal requirements. Additionally, the staff did not
            understand the level of documentation required to support its procurement or
            contract actions.


The Authority Incurred
Unsupported Costs


            The Authority could not support that it spent $206,377 ($88,465 plus $115,586
            plus $2,326) in Recovery Act funds reasonably. This amount represents more
            than 53 percent of its awarded grant amount of $385,264.

            The Authority’s failure to provide full and open competition for $88,465 worth of
            procurements prohibited other businesses from benefiting monetarily. Without
            independent cost estimates or inspections, the Authority could not support cost
            reasonableness for six contracts totaling $115,586. In addition, it could not
            guarantee that the contractors performed the work according to contract
            specifications.

            Without a change order for the $2,326 in additional carpet work, the Authority
            could not support that the cost was reasonable and within the conditions of the
            original contract.


Recommendations


            We recommend that the Director of the Denver Office of Public Housing

             2A.   Require the Authority to provide training to its procurement staff to
                   improve its proficiency in the procurement process.

             2B.   Provide technical assistance to the Authority to ensure that its
                   procurements are open and competitive.




                                             10
2C.   Provide technical assistance to the Authority to ensure that it maintains
      sufficient records to support every procurement and contract action.

2D.   Require the Authority to support that the $88,465 paid for its eight
      procurements was reasonable or repay the difference from non-Federal
      funds.

2E.   Require the Authority to support that the $115,586 paid for its six
      contracts was reasonable or repay the difference from non-Federal funds.

2F.   Require the Authority to support that the $2,326 paid for a change order
      for additional work performed for its carpet replacement contract was
      reasonable or repay the difference from non-Federal funds.




                               11
Finding 3: The Authority Did Not Accurately Report the Number of
             Vendor Payments and Jobs Created
The Authority did not accurately report the number of vendor payments in three quarters and
jobs created in two quarters. This condition occurred because the Authority did not have a
second-level review of the data entered into FederalReporting.gov. As a result, the public did
not have access to accurate vendor payment information and the number of jobs created from its
Recovery Act Capital Fund.



 The Authority Did Not
 Accurately Report the Number
 of Vendor Payments and Jobs
 Created

              The Authority did not accurately report the number of vendor payments in three
              quarters and jobs created in two quarters. Section 1512(c) of the Recovery Act
              required grant recipients to report quarterly the following information in
              FederalReporting.gov:

                     Amount of the Recovery Act grant award,
                     Funds invoiced and received,
                     Total expenditure amount,
                     Project information for use of the grant funds,
                     Number and amount of vendor payments, and
                     Number of jobs created or retained.

              The Authority inaccurately reported the number of vender payments for the fourth
              quarter of 2009, second quarter of 2010, and third quarter of 2011.

              Fourth Quarter of 2009
              The Authority paid a contractor $50,845 in two payments for the replacement of
              nine sets of exterior stairs and handrails. However, it did not report that these
              vendor payments were made during the fourth quarter of 2009 in
              FederalReporting.gov.

              Second Quarter of 2010
              The Authority paid two contractors in three payments for the painting and
              recarpeting of its common areas. It accurately reported the total amount of the
              payments as $29,617. However, it reported only two payments instead of the
              three payments made. Therefore, the Authority failed to report one vendor
              payment during the second quarter of 2010.




                                                12
           Third Quarter of 2011
           The Authority paid a contractor one payment of $19,950 for a new parking lot but
           expensed only $1,779 of the payment toward its Recovery Act funds. It did not
           report that it made the payment of $1,779 with Recovery Act funds. For the
           Authority to comply with reporting requirements, the vendor payment for $1,779
           should have been reported. As discussed in finding 1, the contract was improperly
           obligated, and HUD is required to recapture the $1,779; therefore, there may be no
           adjustments required for reporting purposes.

           The Authority inaccurately reported the jobs created in the second quarter of 2010
           and third quarter of 2011.

           Second Quarter of 2010
           The Authority reported 1.84 full-time jobs created during the second quarter of
           2010. However, its calculation and supporting documentation for the jobs created
           totaled 1.91 full-time jobs created. Therefore, the Authority did not accurately
           report .07 full-time equivalents during the second quarter of 2010.

           Third Quarter of 2011
           The Authority reported .37 full-time jobs created for “demo prep on family units”
           during the third quarter of 2011. The jobs reported and the description of activities
           related to a different capital grant, not its Recovery Act capital grant. Therefore, the
           Authority inaccurately reported jobs created during the third quarter of 2011.

The Authority Had No Second-
Level Supervisory Review


           These reporting deficiencies occurred because the Authority did not have a
           second-level review of the data entered into FederalReporting.gov. One
           employee gathered and entered the data. However, no staff person or supervisor
           reviewed the information.


The Public Did Not Have
Access to Accurate Vendor
Payment and Jobs Created
Information

           The public did not have access to accurate vendor payment and jobs created
           information. The Authority underreported vendor payments made during the fourth
           quarter of 2009, underreported the number of vendor payments in the second quarter
           of 2010, and underreported a vendor payment in the third quarter of 2011. It
           underreported jobs created in the second quarter of 2010 and overreported jobs
           created during the third quarter of 2011. Additionally, for the third quarter of 2011,
           the information entered into FederalReporting.gov related to a different capital grant.

                                              13
         Without accurate information being reported, the public was not accurately informed
         of the Authority’s vendor payments and jobs created. Therefore, the Authority’s
         activities were not transparent as the Recovery Act intended.

         Although we recommend that HUD require the Authority to make the applicable
         reporting changes to ensure that its information is accurate, there is no
         recommendation to address its lack of second-level approval of the reports. As
         the specific requirement to report the Recovery Act funds in
         FederalReporting.gov will end with the last reporting period for the quarter
         ending March 31, 2012, there will be no future Recovery Act information
         reported. The applicable reporting changes include correcting the vendor
         payment information. The reporting system doesn’t allow for the correction of
         the jobs created.

Recommendation


         We recommend that the Director of the Denver Office of Public Housing

         3A. Require the Authority to work with the HUD office to make the applicable
             reporting changes in FederalReporting.gov.




                                         14
                        SCOPE AND METHODOLOGY

Our audit period was March 1, 2009, through September 30, 2011. We performed our onsite
work in November and December 2011 at the Authority’s office at 10745 East Kentucky
Avenue, Aurora, CO.

To accomplish our objectives, we

      Reviewed Federal regulations, the Recovery Act, and HUD requirements.
      Reviewed the Authority’s annual statement, 5-year action plan, board minutes, annual
       audited financial statements, correspondence with HUD, and a review performed by
       HUD.
      Reviewed the Authority’s records related to the Recovery Act. Specifically, we reviewed
       the Authority’s procurement policies, contract files, financial records, and supporting
       documentation.
      Reviewed Recovery Act reporting documents and reports submitted to FederalReporting.gov.
      Interviewed Authority management and staff.
      Interviewed a prior Authority employee who was responsible for the Recovery Act
       contract documentation and reporting in FederalReporting.gov.
      Interviewed Denver HUD Office of Public Housing management and staff.

The Authority was awarded $385,264 in Recovery Act capital funds. We reviewed 100 percent
of the Authority’s Recovery Act obligations, expenditures, and quarterly prime recipient reports
within our audit period.

We did not use computer-generated data as audit evidence or to support our audit conclusions.
We used supporting documentation maintained by the Authority. We compared source
documentation to data reported in FederalReporting.gov and data reported in HUD’s Line of
Credit Control System. All conclusions were based on source documentation during the audit.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               15
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objectives:

                     Controls to ensure that the Authority obligated all of its Recovery Act
                      funds by the deadline.
                     Controls to ensure that the Authority adequately managed its Recovery
                      Act procurements and contracts.
                     Controls to ensure that the Authority accurately reported Recovery Act
                      vendor payment and jobs created information in FederalReporting.gov.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 16
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                   The Authority did not have adequate controls to properly obligate its
                    Recovery Act funds by the deadline (finding 1).
                   The Authority did not have adequate controls to ensure that its employees
                    understood and followed its and HUD’s procurement policies (finding 2).
                   The Authority did not have adequate controls to review Recovery Act data
                    before submitting the information to Federal Reporting.gov (finding 3).




                                              17
                                     APPENDIXES


Appendix A

                SCHEDULE OF QUESTIONED COSTS

                 Recommendation             Ineligible 1/     Unsupported 2/
                        number
                                1A              $22,018
                                2D                                    $88,465
                                2E                                   $115,586
                                2F                                     $2,326


    1/ Ineligible costs are costs charged to a HUD-financed or HUD-insured program or
    activity that the auditor believes are not allowable by law; contract; or Federal, State, or
    local policies or regulations.

    2/ Unsupported costs are those costs charged to a HUD-financed or HUD-insured
    program or activity when we cannot determine eligibility at the time of the audit.
    Unsupported costs require a decision by HUD program officials. This decision, in
    addition to obtaining supporting documentation, might involve a legal interpretation or
    clarification of departmental policies and procedures.




                                             18
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                             Auditee Comments




              April 27, 2012

              Mr. Ronald J. Hosking
              U.S. Department of Housing and Urban Development
              Region VIII Office of Audit
              1670 Broadway, 24th Floor
              Denver, CO 80202-4801

              RE:     Aurora Housing Authority – Response to Audit of ARRA funds

              Dear Mr. Hosking,

                     We are responding to the draft audit report dated April 12, 2012. We
              appreciate the opportunity to respond to the Findings reported to us, and hope
              that we may be able to work closely with the U.S. Department of Housing and
              Urban Development (HUD) to resolve the issues identified in the report.

                      The Aurora Housing Authority accepts responsibility for the actions
              and expenditures made with the Recovery Act funds, and believes that our
              disbursements were in accordance with an earnest interpretation of the Act and
              HUD Notices relating to the Recovery Act funds. Further, we believe that
              there was a lack of complete understanding and training provided to HUD staff
              to assist Public Housing Authorities with the nuances of the ARRA legislation.
              During the time we were disbursing ARRA funds, we received conflicting
              information and direction from local HUD staff, and we believe that was a
              result of a lack of understanding from HUD ‘headquarters’. We have enjoyed
              a close association and rapport with the local HUD office in the past, and hope
              that they will continue to work as our partners in creating solutions to our
              inquiries and to assisting us in meeting our mission to provide decent, safe,
              and supportive housing to low-income households.
             c.

                    10745 E. Kentucky Ave.  Aurora, CO 80012  720-251-2100  TDD 303-341-7639  303-340-1972


                                                      19
            Finding 1:
            The Authority did not properly obligate grant funds.

            a. New Parking Lot: The Authority did not have a valid obligation for $1,779
               paid with Recovery funds.
               AHA Response: The Authority understands that it failed to accurately
               report these funds and will work with HUD to correct this oversight.

            b. Contingency Account: The Authority did not properly obligate $1,076 of
               funds originally assigned to its contingency account.
               AHA Response: The Authority understands that it failed to accurately
               report these funds and will work with HUD to correct this oversight.

            c. Force Account Procurements and Labor: The Authority did not obligate
               $19,163 of its force account labor or procurements sequentially or at a
Comment 1      reasonable rate.
               AHA Response: The Authority believes that it expended these funds
               according to HUD-ARRA Guidelines, and disputes this finding. AHA
               received confusing and/or conflicting guidance from HUD regarding the
               discussion of ‘sequential and reasonable rate’.

            Finding 2:
            The Authority did not adequately manage its Recovery Act procurements and
            contracts.

            a.    Force Account procurements lacked adequate competition: AHA did
                 could not adequately support that it ensured full and open competition for
Comment 2        eight procurements.
                 AHA Response: The Authority believes it has adequate support for its
                 procurements, and will work with HUD to document its procurements.

            b. Lack of Independent Cost Estimates or inspections for its contracts: AHA
               could not support that it performed ICE for some contracts, nor show that it
Comment 3      inspected the completed work.
               AHA Response: AHA developed Independent Cost Estimates using its
               own employees, which is allowable by the HUD 7460.8 Rev 2 Handbook,
               under Procurement Planning. AHA also maintains that it appropriately
               inspected all work prior to payment.

                   10745 E. Kentucky Ave.  Aurora, CO 80012  720-251-2100  TDD 303-341-7639  303-340-1972




                                                     20
c. No Change Order for additional contract work: AHA had $2,326 in
   additional contract work for which it has no change order.
   AHA Response: The Authority understands that it failed to accurately
   report these funds and will work with HUD to correct this oversight.

d. Extra Appliance Purchases: AHA procured $700 in extra appliances it did
   not place into service.
   AHA Response: The Authority understands that it failed to accurately
   report these funds and will work with HUD to correct this oversight.

e. Lack of Supporting Documentation: The Authority did not maintain
   sufficient, detailed records.
   AHA Response: The Authority understands that it failed to sufficiently
   support these files and will work with HUD to correct this oversight.

Finding 3:
The Authority did not accurately report the number of vendor payments and
jobs created.

a. Fourth Quarter of 2009: The Authority did not report that vendor
   payments were made during the fourth quarter of 2009 in
   FederalReporting.gov.
   AHA Response: The Authority understands that it failed to accurately
   report these two payments and will work with HUD to correct this
   oversight.

b. Second Quarter of 2010: The failed to report one vendor payment during
   the second quarter of 2010.
   AHA Response: The Authority understands that it failed to accurately
   report this payment and will work with HUD to correct this oversight.

c. Third Quarter of 2011: The improperly expensed $1,779 of a parking lot
   payment toward its Recovery Act funds.




     10745 E. Kentucky Ave.  Aurora, CO 80012  720-251-2100  TDD 303-341-7639  303-340-1972




                                       21
    AHA Response: The Authority understands that it failed to accurately
    report these funds and will work with HUD to correct this oversight.

d. Second Quarter of 2010: The Authority did not accurately report .07 full-
   time equivalents during the second quarter of 2010.
   AHA Response: The Authority understands that it under-reported jobs
   created in the second quarter of 2010 by .07 FTE and are aware that the
   reporting system does not allow for the correction of jobs created.

e. Third Quarter of 2011: The Authority inaccurately reported jobs created
   during the third quarter of 2011.
   AHA Response: The Authority understands that it inaccurately reported
   jobs created in the second quarter of 2010 and are aware that the reporting
   system does not allow for the correction of jobs created.



 In the past few months, the Aurora Housing Authority has taken the
 opportunity to correct deficiencies in our processes. We have sent staff to
 several days of HUD Procurement training and Section 3 practices, and have
 strengthened our internal controls. The Aurora Housing Authority remains
 committed to fair and competitive procurement and accurate reporting, and we
c.look forward to working with the local HUD office to correct errors or
 omissions in the expenditure of Recovery Act funds.

Please contact me at cmaraschky@aurorahousing.org or at (720) 251-2077 if
you have any questions.

Sincerely,



Craig A. Maraschky
Executive Director




      10745 E. Kentucky Ave.  Aurora, CO 80012  720-251-2100  TDD 303-341-7639  303-340-1972




                                        22
                         OIG Evaluation of Auditee Comments

Comment 1   OIG maintains its position that the Authority did not obligate $19,163 of its force
            account labor or procurements sequentially or at a reasonable rate. The American
            Recovery and Reinvestment Act of 2009 required all grant recipients’ grant funds
            to be obligated by March 17, 2010. The Aurora Housing Authority had until
            March 17, 2010 to sign contracts with contractors, or use its own force account
            staff to start the work planned in its annual statement, and adhere to Recovery Act
            requirements to perform the work sequentially and at a reasonable rate.

Comment 2   The Authority could not provide OIG support to show that it ensured full and
            open competition for eight procurements totaling $88,465. The Aurora Housing
            Authority used its own force account staff to perform major rehabilitation
            activities which involved small purchases between $3,384 up to $40,613.
            Regulations at 24 Code of Federal Regulations (CFR) 85.36(c)(1) states that all
            procurement actions will be conducted providing full and open competition.
            HUD Handbook 7460.8, paragraph 5-3(A), further requires the Authority to
            solicit price quotes from an adequate number of qualified sources, generally not
            fewer than three. The Authority could not support that it obtained any price
            quotes for eight procurements listed in table 2 on page 8 of this report totaling
            $88,465.

Comment 3   The Authority could not adequately support that it performed independent cost
            estimates for the six contracts shown in table 3 on page 9 totaling $115,586.
            Additionally, the Authority could not show that it inspected the work completed
            by the six contractors.




                                            23
